<html>
<title> - PREPARING EARLY, ACTING QUICKLY: MEETING THE NEEDS OF OLDER AMERICANS DURING A DISASTER</title>
<body><pre>[Senate Hearing 109-339]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-339
 
                    PREPARING EARLY, ACTING QUICKLY:
         MEETING THE NEEDS OF OLDER AMERICANS DURING A DISASTER

=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                            OCTOBER 5, 2005

                               __________

                           Serial No. 109-15

         Printed for the use of the Special Committee on Aging



                    U.S. GOVERNMENT PRINTING OFFICE
26-545                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       SPECIAL COMMITTEE ON AGING

                     GORDON SMITH, Oregon, Chairman
RICHARD SHELBY, Alabama              HERB KOHL, Wisconsin
SUSAN COLLINS, Maine                 JAMES M. JEFFORDS, Vermont
JAMES M. TALENT, Missouri            RUSSELL D. FEINGOLD, Wisconsin
ELIZABETH DOLE, North Carolina       RON WYDEN, Oregon
MEL MARTINEZ, Florida                BLANCHE L. LINCOLN, Arkansas
LARRY E. CRAIG, Idaho                EVAN BAYH, Indiana
RICK SANTORUM, Pennsylvania          THOMAS R. CARPER, Delaware
CONRAD BURNS, Montana                BILL NELSON, Florida
LAMAR ALEXANDER, Tennessee           HILLARY RODHAM CLINTON, New York
JIM DEMINT, South Carolina
                    Catherine Finley, Staff Director
               Julie Cohen, Ranking Member Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Gordon Smith........................     1
Opening Statement of Senator Elizabeth Dole......................     3
Opening Statement of Senator Mel Martinez........................     4

                           Panel of witnesses

Keith Bea, specialist, American National Government, Government 
  and Finance Division, Congressional Research Service, 
  Washington, DC.................................................     6
Maria Greene, director, Division of Aging Services, Georgia 
  Department of Human Resources, Atlanta, GA.....................    37
Jeffrey Goldhagen, director, Duval County Health Department; and 
  associate professor of Pediatrics, University of Florida, 
  Jacksonville, FL...............................................    45
Leigh E. Wade, executive director, Area Agency on Aging of 
  Southwest Florida, Inc., Fort Myers, FL........................    63
Carolyn S. Wilken, Ph.D., M.P.H., associate professor and 
  cooperative extension specialist, University of Florida, 
  Gainesville, FL................................................    80
Susan C. Waltman, senior vice president and general counsel, 
  Greater New York Hospital Association, New York, NY............    95

                                APPENDIX

Prepared Statement of Senator Herb Kohl..........................   117
Additional material submitted by Carolyn Wilken..................   118

                                 (iii)

  


 PREPARING EARLY, ACTING QUICKLY: MEETING THE NEEDS OF OLDER AMERICANS 
                           DURING A DISASTER

                              ----------                              --



                       WEDNESDAY, OCTOBER 5, 2005

                              United States Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Gordon Smith 
(chairman of the committee) presiding.
    Present: Senators Smith, Dole, and Martinez.

      OPENING STATEMENT OF SENATOR GORDON SMITH, CHAIRMAN

    The Chairman. Good morning, ladies and gentlemen. We 
welcome all of you to this hearing. It's entitled, ``Preparing 
Early, Acting Quickly: Meeting the Needs of Older Americans 
During a Disaster.'' It is probably one of the most important 
topics our committee will consider this year.
    Over the last several weeks, we in Congress have devoted 
much of our time to helping our fellow Americans who have been 
displaced by Hurricanes Katrina and Rita to get back on their 
feet. We have also begun the long process of rebuilding those 
areas of the Gulf region that have been so ravaged by these 
terrible storms. Now that the work is underway, however, we 
must begin to examine the preparedness of our federal, state 
and local governments to deal with such disasters in the 
future.
    We will hear from our witnesses older Americans have 
special needs that make them particularly vulnerable during an 
emergency. Today's hearing will seek to determine what those 
needs are and how those who are charged with formulating our 
nation's responses can incorporate best practices so these 
concerns are specifically addressed.
    A key lesson learned in the aftermath of the recent 
hurricanes is that government at all levels must do more to 
ensure the health and safety of older Americans during a 
disaster. Many in this population are extremely vulnerable, and 
it is the government's responsibility to ensure that adequate 
steps have been taken to identify those in need, evacuate them 
to safety, and provide appropriate care once they are 
displaced.
    There is no doubt that this poses a daunting challenge, but 
as we will hear from many of today's witnesses, states, 
localities and provider groups have instituted outstanding 
systems that have proven effective. I hope the testimony from 
today's distinguished witnesses allows this committee to learn 
about best practices in disaster preparedness, and enables us 
to move forward with concrete recommendations for how best to 
protect our most vulnerable citizens during emergencies.
    As we have learned, once a disaster strikes, it is too late 
to begin deciding the appropriate course of action. Rather, we 
must be prepared well before the crisis is upon us in order to 
give our responders the best opportunity to identify those most 
at risk and to get them to safety.
    As we will also hear from our witnesses, no two older 
persons are alike. The diversity of need is vast, ranging from 
those who are cared for in a nursing home or hospital to an 
active person living on their own and still able to drive. 
However, when a disaster strikes, we are all vulnerable, and 
extra care must be taken to ensure that older persons are able 
to get out of harm's way.
    As members of this committee, I believe we are protectors 
of older Americans, charged with ensuring that our government 
is taking appropriate care of those in need. Therefore, as we 
contemplate policies to improve our country's disaster 
preparedness, we must consider the special needs of this older 
population; namely, how do we identify people who have health 
or mobility challenges who cannot evacuate on their own; how do 
we safely transport people with various levels of healthcare 
needs out of an impacted area; how do we identify or create 
special-need shelters; how do we ensure emergency medications 
are available and accessible; how do we provide meals for 
people with special dietary needs; how do we provide personal 
care aids for those who are unable to care for themselves; and 
finally, how do we assess the long-term needs of older persons 
and provide assistance in making arrangements for appropriate 
care?
    As we listen to the testimony of our witnesses today, we 
will hear details about the considerable work they have done in 
their communities to address these important concerns. All 
provide some excellent examples of positive results that can be 
achieved with thorough planning and early preparedness. Large 
scale natural disasters like the hurricanes that struck the 
Gulf Coast stretch our federal, state and local response 
capabilities to their absolute limits and we must be prepared.
    I am hopeful today's witnesses will give our committee 
members valuable insight on the special needs of older 
Americans to help us ensure that no lives are needlessly lost 
during future emergencies. Again, I thank you all for coming 
and sharing your expertise with us.
    Now, let me turn to my colleagues, Senator Dole and Senator 
Martinez.

          OPENING STATEMENT OF SENATOR ELIZABETH DOLE

    Senator Dole. Thank you, Mr. Chairman, for calling this 
hearing today on such timely and critical issues. As a former 
president of the American Red Cross and as a senator from North 
Carolina, obviously, I have witnessed firsthand how easily 
hurricanes and other disasters can strip away property and 
possessions, threaten lives, and leave folks displaced.
    As everyone in this room knows all too well from the events 
of recent weeks, disasters can be especially devastating for 
our elderly citizens. Many factors make our seniors more 
vulnerable in their daily lives--lack of mobility, chronic 
medical conditions that require daily medications and other 
treatments, isolation from family and friends, and limited 
financial resources--and it is the very vulnerabilities that 
put the elderly at extraordinary risk when disaster strikes. We 
must be ever mindful of the limitations that put our seniors at 
higher risk in a disaster, and prepare and plan accordingly.
    Public and private partnerships at all levels of government 
are vital to reducing disaster suffering and damage. No single 
organization has the time, the people, or the financial 
resources to do all that needs to be done. Government agencies 
and organizations like the American Red Cross emphasize the 
importance of personal responsibility, urging businesses, 
schools and families to have an emergency plan in place.
    Seniors, and the ones who care for them, also must be 
strongly encouraged to have such a plan. Like everyone else, 
they readily need emergency phone numbers, blankets, cash and a 
first-aid kit, but many seniors also need oxygen, prescription 
drugs, and extra batteries for hearing aids and wheelchairs. We 
need to encourage personal preparation for our seniors, as this 
would greatly minimize their stress and trauma in a disaster 
situation.
    Of course, communication and information access are 
critical in a disaster, not just to facilitate response and 
recovery efforts, but also to assist the victims. That is one 
of the reasons that I am a strong supporter of 211, an easy to 
remember phone number that those who need assistance or want to 
volunteer can use to connect with community services and 
volunteer opportunities. 211 is currently available in 22 
states, and I have co-sponsored legislation that would expand 
this service nationally.
    When someone calls 211, trained staff and volunteers 
analyze what services are needed from nonprofits, government 
agencies, and other organizations, and then they quickly 
connect the caller with those services. In the Gulf Coast, 211 
has served as a valuable resource for people devastated by 
Katrina and Rita. For example, in Louisiana, an elderly caller 
desperately needed his medication. He did not have a doctor's 
prescription, but he did have empty medicine bottles. The 211 
call specialist got in touch with his local pharmacy and 
verified that it would supply his medicine. The call specialist 
then quickly called the man back and gave him the information 
he needed to get his medication.
    Like the elderly man in Louisiana who needed that 
medication, many of our older Americans have special needs that 
must be addressed before, during and after a disaster. This 
committee has a unique responsibility to carefully consider 
these issues, and I appreciate the presence of each and every 
witness here today, and I want to thank each of you for all 
that you do to protect our older Americans when disasters 
strike.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Dole.
    Senator Martinez.

           OPENING STATEMENT OF SENATOR MEL MARTINEZ

    Senator Martinez. Mr. Chairman, thank you very much, and 
thank you for holding this important hearing today. It is 
important that we focus on the unique needs of the elderly in 
times of natural disasters. As Congress continues to exercise 
proper oversight in examining the response by government at all 
levels--local, state and federal--to the damage caused by 
Hurricane Katrina and what the appropriate federal role in 
responding to natural disasters should be, I want to call to 
your attention a piece written by Florida Governor Jeb Bush, 
which published in The Washington Post on September the 20, of 
this year. I would like to, with your concurrence, make it a 
part of the record of today's hearing.
    The Chairman. We will include it in the record.
    [The information follows:]

    In the wake of Hurricane Katrina, Americans are looking to 
their leaders for answers to the tragedy and reassurances that 
the mistakes made in the response will not be repeated in their 
own communities. Congressional hearings on the successes and 
failures of the relief effort are underway.
    As the governor of a state that has been hit by seven 
hurricanes and two tropical storms in the past 13 months, I can 
say with certainty that federalizing emergency response to 
catastrophic events would be a disaster as bad as Hurricane 
Katrina.
    Just as all politics are local, so are all disasters. The 
most effective response is one that starts at the local level 
and grows with the support of surrounding communities, the 
state and then the federal government. The bottom-up approach 
yields the best and quickest results--saving lives, protecting 
property and getting life back to normal as soon as possible. 
Furthermore, when local and state governments understand and 
follow emergency plans appropriately, less taxpayer money is 
needed from the federal government for relief.
    Florida's emergency response system, under the direction of 
Craig Fugate, is second to none. Our team is made up of 
numerous bodies at all levels of government, including state 
agencies, the Florida National Guard, first responders, 
volunteer organizations, private-sector health care 
organizations, public health agencies and utility companies. 
Once a storm is forecast for landfall in Florida, all these 
groups put their disaster response-and-recovery plans into high 
gear.
    Natural disasters are chaotic situations even when a solid 
response plan is in place. But with proper preparation and 
planning, it is possible--as we in Florida have proved--to 
restore order, quickly alleviate the suffering of those 
affected and get on the road to recovery.
    The current system plays to the strengths of each level of 
government. The federal government cannot replicate or replace 
the sense of purpose and urgency that unites Floridians working 
to help their families, friends and neighbors in the aftermath 
of a disaster. If the federal government removes control of 
preparation, relief and recovery from cities and states, those 
cities and states will lose the interest, innovation and zeal 
for emergency response that has made Florida's response system 
better than it was 10 years ago. Today's system is the reason 
Florida has responded successfully to hurricanes affecting our 
state and is able to help neighboring states.
    But for this federalist system to work, all must 
understand, accept and be willing to fulfill their 
responsibilities. The federal government and the Federal 
Emergency Management Agency are valuable partners in this 
coordinated effort. FEMA's role is to provide federal resources 
and develop expertise on such issues as organizing mass 
temporary housing. FEMA should not be responsible for manpower 
or a first response--federal efforts should serve as a 
supplement to local and state efforts.
    Florida learned many lessons from Hurricane Andrew in 1992, 
and we have continued to improve our response system after each 
storm. One of the biggest lessons in that local and state 
governments that fail to prepare are preparing to fail. In 
Florida, we plan for the worst, hope for the best and expect 
the unexpected. We understand that critical response components 
are best administered at the local and state levels.
    Our year-round planning anticipates Florida's needs and 
challenges--well before a storm makes landfall. To encourage 
our residents to prepare for hurricane season this year, for 12 
days Florida suspended the state sales tax on disaster 
supplies, such as flashlights, batteries and generators. 
Shelters that provide medical care for the sick and elderly 
take reservations long before a storm starts brewing. To ensure 
that people get out of harm's way in a safe and orderly manner, 
counties coordinate with each other and issue evacuation orders 
in phases. Satellite positioning systems, advanced computer 
software and a uniform statewide radio system allow all of 
these groups and first responders to communicate when the 
phones, cell towers and electricity go out.
    The Florida National Guard is deployed early with clear 
tasks to restore order, maintain security and assist 
communities in establishing their humanitarian relief efforts. 
Trucks carrying ice, water and food stand ready to roll into 
the affected communities once the skies clear and the winds die 
down. Counties predetermine locations, called points of 
distribution, that are designed for maximum use in distributing 
these supplies.
    Florida's response to Hurricane Katrina is a great example 
of how the system works. Within hours of Katrina's landfall, 
Florida began deploying more than 3,700 first responders to 
Mississippi and Louisiana. Hundreds of Florida National 
Guardsman, law enforcement officers, medical professionals and 
emergency managers remain on the ground in affected areas. 
Along with essential equipment and communication tools, Florida 
has advanced over $100 million in the efforts, including more 
than 5.5 million gallons of water, 4 million pounds of ice and 
934,000 cases of food to help affected residents.
    I am proud of the way Florida has responded to hurricanes 
during the past year. Before Congress considers a larger, 
direct federal role, it needs to hold communities and states 
accountable for properly preparing for the inevitable storms to 
come.

    Senator Martinez. He illustrates the way that local and 
state governments most effectively prepare for a crisis and the 
proper role of the federal government. A senator from that 
state, Florida, which has experienced seven hurricanes and two 
tropical storms in the last 13 months. I urge the consideration 
of the successes and the challenges that Florida faces very 
uniquely when disasters occur.
    Mr. Chairman, I can remember last year in the aftermath of 
Hurricane Charley, which was the first one to ravage Florida 
last year, a group of elderly citizens who had been transported 
from the Port Charlotte area to Tampa. The building where they 
lived had been completely destroyed. They had been relocated to 
a hotel and it appeared they were going to live there for 
several months.
    The thing that struck me the most about that was the spirit 
of these people. They were all displaced, all in need of their 
medication, their routine, their doctors, the things that 
become a part of the daily life of elderly American, and yet 
their spirit was incredible. They were determined to get on 
with life, grateful for every little thing that was done for 
them, and understanding that they were going to be displaced 
for a period of time, but determined not to let this completely 
alter and change their lives. I think that incredible spirit is 
what we need to try to encourage while providing the necessary 
and vital services.
    When I was in local government I know how hard we worked to 
provide the special-need shelters that Senator Dole was 
discussing, and would have them available to all of the special 
needs population that may be medically dependent, but 
particularly our elderly population and the special needs that 
they would have.
    The thing that I find that is so in need is for us to look 
at the long-term recovery from storms. I think in spite of the 
Katrina experience, that we do reasonably well in the short 
term. I think we have to analyze and examine how we improve all 
that we do. I am not just suggesting federal governmental 
intervention, but I am talking about all levels of community, 
whether it be the not-for-profits like the Red Cross, or 
whether it be the involvement of the faith community, or local 
and state government, all of that working together to see how 
we impact the long-term recovery.
    When we look at this vulnerable population, I think one of 
the most difficult things is the issues that linger beyond the 
immediate aftermath of a storm when one with advanced age, 
already in medical need, faces long-term displacement from a 
home or from their usual surroundings. So I look forward to the 
hearing and the testimony of your witnesses today and very much 
thank you for calling this hearing. Thank you.
    The Chairman. Thank you, Senator Martinez.
    To the points that each of you have made, this will be the 
first hearing of a number that we will hold, continuing to 
focus on different aspects that we may yet hear, even today, 
about how the governmental response at all levels can be 
tightened up and improved.
    We will now turn to our first witness, our first panel. 
That consists of Mr. Keith Bea. He is a specialist in American 
National Government at the Congressional Research Service. He 
is here to discuss the framework that governs how government 
entities work together to plan for a respond to disasters.
    Thank you, Keith for coming here today.

     STATEMENT OF KEITH BEA, SPECIALIST, AMERICAN NATIONAL 
  GOVERNMENT, GOVERNMENT AND FINANCE DIVISION, CONGRESSIONAL 
                RESEARCH SERVICE, WASHINGTON, DC

    Mr. Bea. Good morning, Chairman Smith, Senators Dole and 
Martinez. It is a pleasure to be here. On behalf of the 
director of CRS, I thank you for the invitation to participate 
in this important hearing. As you know, all CRS analysts who 
testify before a congressional committee are prohibited from 
making policy recommendations, and must confine their remarks 
to their field of expertise.
    Pursuant to the committee's letter requesting my 
participation today I will provide information in three areas. 
First, overview of federal emergency management policies; 
second, a reference to federal evacuation policies; and third, 
a summary of the interactions of the federal government with 
non-federal entities in implementing emergency management 
policies.
    My responsibilities in CRS do not include coverage of the 
evacuation policies pertinent to care facilities, health 
institutions, or the elderly in communities. My colleagues in 
CRS, some of whom have already provided material to the 
committee, are prepared to continue to assist you on these in-
depth policy matters as your inquiry proceeds.
    My first task is to provide a brief overview of federal 
policies. The Department of Homeland Security administers many, 
but not all, of the federal emergency management policies. The 
Homeland Security Act of 2002, which established the Department 
of Homeland Security, consolidated many of the functions and 
missions of the component legacy agencies.
    As shown in Table 1, attached to my testimony, 13 
departments, other than DHS, 8 agencies, the executive office 
of the President, and the House of Representatives implement 
statutory authorities that touch upon some element of federal 
emergency management. Many of these authorities focus on 
specific types of emergencies or conditions.
    My comments this morning will center on the most 
significant policies that relate to the functions of the 
Department of Homeland Security, particularly the Emergency 
Preparedness and Response Directorate, also known as the 
Federal Emergency Management Agency, or FEMA.
    Two principal statutory authorities appear pertinent to the 
committee's request for a general overview. These are the 
Homeland Security Act and the Robert T. Stafford Disaster 
Relief and Emergency Assistance Act, often referred to as the 
Stafford Act.
    First, the Homeland Security Act of 2002 vests in the 
Department of Homeland Security a seven-part mission, which 
includes preventing terrorist attacks; serving as a focal point 
regarding natural and man-made crisis in emergency planning; 
and other functions as set out in my written statement.
    Title V of the Homeland Security Act established the 
Emergency Preparedness and Response Directorate within the 
department; set forth the responsibilities for the 
undersecretary for emergency preparedness and response; and for 
the first time, elucidated the mission of FEMA in a single 
statutory provision.
    The responsibilities of the Undersecretary of Emergency 
Preparedness and Response, who has also been referred to as the 
director of FEMA, include managing the response to attacks and 
major disasters by positioning emergency equipment and supplies 
and evacuating potential victims; aiding recovery from attacks 
and disasters; and consolidating federal emergency management 
response plans into a single, coordinated National Response 
Plan, among other functions. I will provide information on the 
National Response Plan later in my statement.
    Title V of the Homeland Security Act assigns two large 
categories of responsibilities to FEMA. First, the agency is to 
implement the Stafford Act and, second, protect the nation from 
all hazards by leading and support the nation in a 
comprehensive, risk-based emergency management program.
    The second principal federal statutory authority that I 
will refer to you is the Stafford Act, which authorizes the 
President to issue declarations that direct federal agencies to 
provide assistance to states overwhelmed by disasters. Through 
executive orders, the President has delegated to the Secretary 
of Homeland Security responsibility for administering 
provisions of the Stafford Act. Assistance authorized by the 
statute is provided through funds appropriated by Congress to 
the Disaster Relief Fund. A history of funds appropriated to 
the Disaster Relief Fund since 1974 is presented in Table 2 of 
my written statement.
    Under Stafford Act authority, the President or his 
designees may take specified actions as summarized in my 
written statement. The President may direct, at the request of 
a governor, that Department of Defense resources be committed 
to perform emergency work to preserve life and property in the 
immediate aftermath of an incident that may eventually result 
in the declaration of a major disaster or emergency.
    Also, the Secretary of Homeland Security may preposition 
supplies and employees. The Act also authorizes the President 
to issue a major disaster declaration or an emergency 
declaration at the request of a government. Major disaster 
declarations may be issued after a natural catastrophe or, 
regardless of cause, after a fire, flood or explosion. The 
President may exercise broader authority when issuing an 
emergency declaration, generally but not always, at the 
governor's request. Information on the different types of 
assistance authorized to be provided after a major disaster or 
emergency declaration is summarized in my written statement.
    A number of administrative policy documents and guidances 
have been issued to implement these and other federal statutory 
policies. Presidents have issued directives, including 
executive orders, that set out responsibilities for different 
aspects of emergency management.
    Following the terrorist attacks of September 11, President 
Bush issued Homeland Security Presidential Directives, or 
HSPDs, that have established emergency management preparedness 
and response policies. Section 16 of Homeland Security 
Presidential Directive-5 required the Secretary of Homeland 
Security to develop and administer a National Response Plan. 
The directive mandates that the plan integrate federal domestic 
prevention, preparedness, response and recovery plans into one 
all-discipline, all-hazards plan.
    On January 6, 2005, former Secretary Tom Ridge released the 
National Response Plan. The National Response Plan includes 
emergency support functions assigned to federal agencies and to 
the American Red Cross; sets out the interagency organizational 
frameworks, and includes annexes for certain types of 
catastrophes and activities. Figure 2 of the National Response 
Plan, also attached to my written statement, identifies the 
responsibilities of federal agencies under the NRP for certain 
missions.
    Moving from this overview discussion of statutory 
authorities, presidential directives and the NRP, I would like 
to address a second requested topic, a general discussion of 
federal evacuation policies that have been enacted by Congress.
    A database search of the U.S. Code revealed 15 statutory 
provisions pertaining to evacuations. Table 3, attached to this 
testimony, summarizes the provisions and identifies statutory 
citations. These statutory provisions range from very general 
authority to specific requirements with which agencies must 
comply. In general, federal policy acknowledges state authority 
pertinent to evacuation, and local officials generally work 
with state officials to enforce those laws.
    An example I would like to bring to the committee's 
attention is recent congressional action that occurred after I 
submitted my written testimony to the Committee. The conference 
report, filed on September 29, that accompanied, the 
appropriation for the Department of Homeland Security--that's 
H.R. 2360--addresses the issue of evacuation procedures.
    The conferees recognize that state and local governments 
must develop multi-state and multi-jurisdictional evacuation 
plans and direct the Department of Homeland Security to develop 
guidelines for state and local governments to follow in the 
development of those plans. To my knowledge, this legislation 
awaits the President's signature.
    Finally, I would like to provide the Committee with insight 
regarding the complex, intergovernmental and intersectoral 
relationships involved in federal emergency management.
    The National Response Plan, like the Stafford Act, is 
premised upon the involvement of non-federal entities. Federal 
emergency management involves federal agencies, and as noted by 
the Senators in your opening comments, state and local 
governments, tribal organizations, voluntary organizations, the 
private sector, and individuals and families. The Stafford Act 
also requires that federal assistance be predicated upon the 
maintenance of insurance and that federal aid provided under 
the act not duplicate such assistance.
    In addition, the preparedness of families and individuals, 
the planning and practices conducted by private organizations, 
and the exercise of state and local authorities all converge at 
the scene of a significant catastrophe, often, as you know, 
under the klieg lights of CNN and other broadcast media. Some 
sources of information on activities undertaken by state and 
nongovernmental entities, brought to my attention by my 
colleagues in CRS, are identified in my written statement.
    In summary, the federal role, as established by statute, 
administrative direction and tradition is bifurcated. One 
mission is to coordinate the activities of federal and non-
federal responding agencies and the other is to provide 
assistance, whether through financial means, technical aid, or 
the transfer of material or supplies. Federal emergency 
management is based upon policies that concentrate some 
authority in the Department of Homeland Security and disperse 
other authorities to other federal entities. Federal 
authorities include some provisions on mass evacuation that 
acknowledge state authority and rely upon a complex mix of 
governmental and non-governmental actors.
    I appreciate the opportunity to address the committee and 
stand ready to respond to questions on the general matter of 
federal emergency management policies and practices. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Bea follows:]

    [GRAPHIC] [TIFF OMITTED] T6545.001
    
    [GRAPHIC] [TIFF OMITTED] T6545.002
    
    [GRAPHIC] [TIFF OMITTED] T6545.003
    
    [GRAPHIC] [TIFF OMITTED] T6545.004
    
    [GRAPHIC] [TIFF OMITTED] T6545.005
    
    [GRAPHIC] [TIFF OMITTED] T6545.006
    
    [GRAPHIC] [TIFF OMITTED] T6545.007
    
    [GRAPHIC] [TIFF OMITTED] T6545.008
    
    [GRAPHIC] [TIFF OMITTED] T6545.009
    
    [GRAPHIC] [TIFF OMITTED] T6545.010
    
    [GRAPHIC] [TIFF OMITTED] T6545.011
    
    [GRAPHIC] [TIFF OMITTED] T6545.012
    
    [GRAPHIC] [TIFF OMITTED] T6545.013
    
    [GRAPHIC] [TIFF OMITTED] T6545.014
    
    [GRAPHIC] [TIFF OMITTED] T6545.015
    
    [GRAPHIC] [TIFF OMITTED] T6545.016
    
    [GRAPHIC] [TIFF OMITTED] T6545.017
    
    [GRAPHIC] [TIFF OMITTED] T6545.018
    
    [GRAPHIC] [TIFF OMITTED] T6545.019
    
    [GRAPHIC] [TIFF OMITTED] T6545.020
    
    [GRAPHIC] [TIFF OMITTED] T6545.021
    
    [GRAPHIC] [TIFF OMITTED] T6545.022
    
    [GRAPHIC] [TIFF OMITTED] T6545.023
    
    [GRAPHIC] [TIFF OMITTED] T6545.024
    
    [GRAPHIC] [TIFF OMITTED] T6545.025
    
    The Chairman. Thank you, Mr. Bea. I suppose my overriding 
question to you is, is the Stafford Act sufficient? Does it 
need enhancement, strengthening? I don't want this to be a 
finger-pointing session, but did it work? Did it work in 
Florida last year? Did it work in Mississippi, Louisiana and 
Texas? Does the federal component need to be strengthened?
    Mr. Bea. Well, Senator, as I pointed out in my opening 
comments, we are prohibited from making policy recommendations. 
They surgically removed that gland when I came to work for CRS. 
But I will tell you that questions have been raised about the 
adequacy of the Stafford Act. The Stafford Act is based upon 
1950 authority that has been amended several times over the 
decades. It certainly seems pertinent for Congress to look at 
the implementation of the Stafford Act, and whether the 
emergency management needs of the 21st century are met by not 
only the Stafford Act, but by other federal emergency 
authorities I identify in Table 1.
    The Chairman. I think the American people, generally, when 
these things occur, they want government to be responsive and 
efficient, and I do not think they are much focused on whether 
it is local, state or federal; they just want the system to 
work.
    Mr. Bea. True.
    The Chairman. Obviously, so do we. One of the points of 
this hearing is to find out what more we need to do 
statutorily, regulatorily, to make this response more seamless 
than it was, at least in one state.
    Mr. Bea. It is a rich area for congressional action, 
Senator Smith.
    The Chairman. No question about it.
    As you have focused on this hearing, in which our focus is 
to look at the needs of the elderly, is there a sufficient way 
to identify them, their special needs, and their mobility 
challenges? Do we have the right kinds of data about them, 
where they are, and what their needs are to be responsive? As I 
listened to your testimony, obviously, there are lots of lists. 
The government is good at making lists, but are they workable, 
are they duplicative, are they being utilized properly?
    Mr. Bea. The concept of the National Response Plan and, in 
general, the Stafford Act, is to coordinate federal responses 
and non-federal resources. Clearly, there are improvements to 
be made. I am not an expert in the data on elderly population. 
My colleagues in CRS can better address that. But, Senator, I 
will comment that, generally, the federal emergency management 
policies do not address particular populations, and that may be 
one area that the Senate may wish to pursue.
    The Chairman. You mentioned the double counting by 
ambulance companies and other emergency providers when 
establishing contracts with facilities that need evacuation 
plans. Does this work? Is there double counting? Is the 
complexity too great? Have there been efforts to ensure that if 
and when a provider double counts that they have contingency 
plans in place?
    Mr. Bea. Thankfully, my colleague, Sarah Lister, suggested 
that I include that in my statement. It is an indication of the 
complexity of significant catastrophes; that if you have 
established an operating procedure, under a normal 
circumstance, something should happen; police should be there.
    Clearly, what we have seen in the Gulf states is that what 
happens is the first responders are so devastated and the 
people you are counting on to respond are so devastated that 
they cannot respond. What happens next? What is plan B? 
Therefore, the double counting issue, apparently, according to 
my colleague, is an issue that has been identified and is just 
one example of specific issues that add to the complexity of 
the mix, that require attention to some of the details, and 
also the flexibility to develop responses with plans B, C and D 
if necessary.
    The Chairman. Obviously, we care about the safety of first 
responders. As you have evaluated this system, first 
responders, do they have a place to be protected in the event 
of a hurricane, and what happens if they run away?
    Mr. Bea. The first responders, as often is pointed out to 
me, are the people at the scene. If a bomb were to explode in a 
federal building, the staff, the Members, the people who are 
there in addition to the capitol police, would be the first 
responders. The backup systems that you have, whether they are 
federal or non-federal, are key in ensuring an adequate 
response if our initial first responders are not available, 
whether they departed or whether they were impaired. That is 
part of the system of planning that should take place largely 
through state planning, and the federal guidances are there to 
set the framework for state plans.
    The Chairman. I think it would be important also to say, as 
much as we want government to get it right--I am reminded of my 
wise, old mom that used to say, ``The Lord helps those who help 
themselves.'' Obviously, personal preparation is very 
important. I think we live in a day and age where at both the 
government and the individual level, we have to assume the 
worst and plan for it. All Americans ought to look to their own 
security and safety in the event of catastrophe and engage in 
provident living because that will lead to better preparation 
for the unexpected, which these days seems to be more expected 
than ever.
    Senator Martinez, do you have questions?
    Senator Martinez. I was only going to just inquire as to 
the Stafford Act, whether you thought in the recent events 
there were clear flaws in it that you could make a 
recommendation that they should be amended or changed. Are you 
prohibited from doing that?
    Mr. Bea. I am, Senator.
    Senator Martinez. I guess that is why I did not hear that 
from you.
    Mr. Bea. I will also tell you I am very respectful of 
people who are on the ground there. I have been up here. I 
watched the news media; I spoke with people involved. I would 
be very hesitant to assert my position as a third party 
evaluator, at this point, in examining what happened down 
there. Clearly, it was a tragedy; clearly, mistakes were made.
    Senator Martinez. Yes, it does seem to me that it ought to 
be reviewed with eyes towards modernizing it and maybe making 
it more compatible with today's real situations and the real 
world.
    Mr. Bea. Absolutely.
    Senator Martinez. Sometimes it does take a cataclysmic 
event like we had happen to awaken to us the need for reform.
    I do go back to the Florida experience where Governor Bush 
has very clearly come on the side of maintaining the 
preeminence of local government as it relates to evacuations, 
responsibilities, and things like that. I am not so sure that 
there should be anything done to change that. I think at the 
end of the day, the federal government's role has always been a 
secondary role, a role of assistance, prepositioning supplies 
and things that would come in, in the second wave. But my own 
experience in local government is that those difficult 
decisions of when to evacuate, and preparing shelters for 
evacuation that are adequate, and taking into account the 
special needs population really squarely falls under the 
responsibility of state and local government. I am not sure 
that anything federally we can do ought to change that.
    Mr. Bea. I understand. Absolutely.
    Senator Martinez. Thank you.
    The Chairman. Mr. Bea, thank you very much. You have been a 
great witness, and you have added measurably to the record and 
given us some things to work on.
    Mr. Bea. Thank you, Senator.
    The Chairman. Our second panel consists of Ms. Maria 
Greene, who is the director of the Division of Aging Services 
in the Georgia Department of Human Resources. Ms. Greene will 
discuss how her agency works with the Georgia Emergency 
Management Agency to ensure the safety of older Georgians 
during a disaster.
    Also on this second panel is Dr. Jeffrey Goldhagen. He is 
the director of the Duval County Health Department, which is 
home to Jacksonville, FL. He will be giving us an overview of 
the system his health department has instituted to assist the 
elderly and other special needs individuals in preparing for 
and evacuating during a disaster.
    Ms. Greene, thank you for being here.

    STATEMENT OF MARIA GREENE, DIRECTOR, DIVISION OF AGING 
  SERVICES, GEORGIA DEPARTMENT OF HUMAN RESOURCES, ATLANTA, GA

    Ms. Greene. Good morning, Chairman Smith and distinguished 
members of the committee. I am the director of the Division of 
Aging Services, designated as the state unit on aging. It is my 
pleasure to talk with you today about Georgia's emergency 
preparedness plan as it relates to older adults and people with 
disabilities.
    The organization of the Department of Human Resources is 
unique in its ability to respond to the needs of citizens. We 
have integrated and coordinated plans that have been tested and 
improved upon. Georgia responded quickly and resourcefully in 
assisting people fleeing from hurricane-ravaged states, and we 
have new lessons learned to incorporate into our planning.
    Along with Aging Services, the department is an integrated 
human services agency that includes divisions of Public Health, 
the Mental Health State Authority, and Family and Children 
Services, just to name a few. The coordinated efforts of the 
department, other state agencies, local governments and 
private-sector organizations comprise our state's emergency 
plans.
    In conjunction with the department, the area agencies on 
aging have county, city, regional and state emergency 
preparedness plans. The plans include the coordination of 
first-responder tasks with the local EMS, law enforcement, and 
county officials. The area agency on aging staff identifies at-
risk older adults and people with disabilities that receive 
services through our network. These individuals would need 
assistance to evacuate in an emergency and have no immediate 
family caregiver to aid them. Citizens who do not receive 
public benefits but are in need of assistance, before or after 
a crisis, are encouraged to register with the local EMS or a 
law enforcement agency.
    Our protocol was put to test during an after-hours chemical 
accident at a laboratory in the metropolitan area. Citizens in 
the vicinity needed to evacuate. The local aging service 
provider had a special needs list of people who receive our 
services and are in need of assistance during an emergency. The 
client listing is updated quarterly and shared with local EMS 
and law enforcement. The care managers had a copy of the client 
list in their homes, and were ready to help when the staff 
telephone tree was activated. Everyone was assisted to safety, 
but one lesson learned--just a small lesson--from that 
experience was the need for automobile cell phone charges due 
to the batteries running down and having no immediate access to 
the buildings.
    Most recently, Georgia was able to assist individuals 
displaced from the states impacted by the hurricanes. Governor 
Purdue, Commissioner Walker, and I were at Dobbins Air Force 
Base when people were air lifted from the Gulf states. Many of 
the people were elderly and disabled.
    During the chaos of a disaster of this magnitude, it is 
understandable that many people arrived and were quickly placed 
in shelters, hospitals, and facilities. It was not immediately 
known, however, where all the individuals were placed. The 
Long-Term Care Ombudsman Program, the Office of Regulatory 
Services, the Georgia Advocacy Office, the community service 
boards, and all of the area agencies on aging have worked 
tirelessly to identify the displaced individuals placed in 
facilities. These individuals have been reunited with families, 
moved to more appropriate home and community services, and 
assisted in the facilities where they choose to remain.
    Many fine examples of emergency response developed from our 
work. Nursing home and personal care home associations and 
mental health hospitals monitored their bed vacancies. Senior 
centers generously volunteered to be used as rest areas and 
lunch locations for persons regardless of age. The state 
created resource centers, where one-stop access for services 
could occur. Georgia embraced flexibility for benefits and 
developed assessment teams to go to hotels, where large numbers 
of displaced persons were staying. The team members were 
comprised of staff throughout the department, including aging 
and the disability networks.
    During a crisis, we all feel that the bulk of our work is 
happening at that point in time. What we are actually learning 
is that assistance after the crisis, especially by human 
service organizations, is crucial.
    During the time of crisis, so many people are at their 
best, but others are at their worst behavior. Unscrupulous 
people will use disaster to put money into their own pockets, 
money that was intended for those who were suffering. The Adult 
Protective Services Program and elder abuse prevention 
specialists were called upon to investigate and intervene on 
cases of suspected abuse, fraud and exploitation of the 
hurricane victims. In the future, our revised emergency 
preparedness plan will include additional planning to prevent 
the abuse before it starts.
    Also as a result of consumer fraud and exploitation, the 
increased need for elderly legal assistance has become very 
apparent. A special training to lawyers around specific legal 
interventions for displaced persons is occurring this month.
    Another valuable lesson learned is the significant needs of 
people who have cognitive impairments. Mental health 
professionals were available to offer mental health crisis 
support, but the knowledge of someone's dementia or Alzheimer's 
was unknown. Electronic medical records and access to basic 
healthcare information would have aided appropriate placements 
for a special needs shelter.
    Our department is an exceptional, integral part of 
Georgia's emergency response before, during and after a crisis. 
Communications, coordination and understanding of older adults 
and people with disabilities are critical to disaster 
preparedness. Work to modify our existing emergency plans to 
incorporate these lessons learned is currently underway.
    Thank you for the opportunity to share with the committee 
Georgia's experience in emergency preparedness.
    [The prepared statement of Ms. Greene follows:]

    [GRAPHIC] [TIFF OMITTED] T6545.026
    
    [GRAPHIC] [TIFF OMITTED] T6545.027
    
    [GRAPHIC] [TIFF OMITTED] T6545.028
    
    [GRAPHIC] [TIFF OMITTED] T6545.029
    
    [GRAPHIC] [TIFF OMITTED] T6545.030
    
    The Chairman. Thank you very much.
    Ms. Greene. You are welcome.
    The Chairman. Jeffrey Goldhagen. Thank you.

 STATEMENT OF JEFFREY GOLDHAGEN, DIRECTOR, DUVAL COUNTY HEALTH 
 DEPARTMENT; AND ASSOCIATE PROFESSOR OF PEDIATRICS, UNIVERSITY 
                  OF FLORIDA, JACKSONVILLE, FL

    Mr. Goldhagen. Well, thank you, sir. It is a pleasure to be 
here, Chairman Smith. Certainly my distinguished Senator from 
Florida, it is a great opportunity to be here. My bias is going 
to come out pretty squarely, pretty quickly as I move through 
this presentation.
    The nation has 3,000 local health departments. Now, all 
those local health departments are at various levels of 
sophistication with respect to their ability to respond and 
their capacity to respond, but, fundamentally, the 
responsibility for that first response and for the health and 
well-being of special needs citizens, including the elderly, 
fall fairly straight-forwardly on the shoulders of local health 
departments.
    The Chairman. Should it be otherwise?
    Mr. Goldhagen. No, it should not be otherwise. We are 
central partners with the public safety colleagues, but, in 
fact, it is pretty straightforward what the responsibilities of 
our public safety agencies are. It is pretty well-defined and 
they are fairly well-funded. But, in fact, for public health, 
that definition is not quite as well-defined nationally, and we 
have not had the degree of funding that our public safety 
colleagues have had.
    With respect to special needs--just a broad overview--we 
are responsible for identification of all special needs people, 
citizens in the community and their triage. We are responsible 
for ensuring their transportation to appropriate shelters. We 
are responsible for ensuring that, in fact, their medical needs 
are met, their mental health needs are met, their social 
service needs are met within the context of the shelters. We 
are responsible for post-event planning to make sure that they 
are discharged and get to a venue that is safe for them, 
ensuring, in fact, they get to those venues.
    In particular--and I think it relates to the question about 
double counting--we are responsible for ensuring that the 
system works. There are hospitals in this system, there are 
home health agencies in this system, there are ambulance 
companies in this system, there are dialysis centers in this 
system. There are numeral parts of this system that have to 
work. In fact, it is local health departments that are 
responsible that the system responds appropriately, and to be 
accountable and to intervene when, in fact, those systems are 
not, both prospectively as well as during the event.
    It is critical to understand the important role that we 
play because over the last several decades, in fact, the 
infrastructure of public health has been allowed to 
deteriorate. It may be too strong a word to say that it has 
decimated, but it has been allowed to deteriorate. The 
Institute of Medicine has put together two very poignant 
reports on that, and, in fact, what we see now is that if that 
infrastructure is not available and present, then we are not 
able to respond.
    Let me go into some more specifics, some of the challenges. 
We have to make sure that, in fact, the shelter is open. We 
have to make sure that there is medical personnel. We have to 
make sure that there is access to medication, access to oxygen, 
availability of dialysis. That is our responsibility. We are 
also responsible to make sure the hospitals are prepared. In 
fact, it is our responsibility to make sure they have 
generators in place, that assisted-living facilities have 
generators in place, that, in fact, the shelters have 
generators in place, so that is essentially our responsibility.
    It is our responsibility to make sure that, in fact, the 
equipment that is required in the shelters are there, whether 
it is lifts to make sure that we can lift overweight people or 
appropriate cots that fill the needs of those that are elderly, 
and on and on.
    Now, with respect to what we have been able to do in Duval 
County, we are very proud of what we have been able to put 
together. With respect to what Senator Martinez had said a 
moment ago, that, in fact, is the secret to our success, that 
local communities have assumed responsibility and particular 
local public health agencies have assumed responsibilities.
    In Jacksonville, as an example, at least once a year, 
sometimes twice a year, we put out a request for registration 
for special-needs in the utility bills. So we get information 
through the utility bills as well as a number of other sources 
of information to identify and register all of the people with 
special needs.
    All of that information goes into a searchable database. 
That includes extensive information, and I am going to read 
some of that information; demographics on the individual; who 
the person's physician is; what pharmacy they use; what 
medications they have; what home health agency they use; who 
are their emergency contact persons in and out of town; 
permission to search their home after an event; again, their 
medications; what disabilities they have, what special medical 
needs they have or transportation requirements they have; 
whether they live in a surge zone; and so on. That is all 
searchable, based on what category storm is coming in and the 
type of event that might be happening.
    The Chairman. Jeff, you actually get written permission to 
enter their homes ahead of time.
    Mr. Goldhagen. Right.
    The Chairman. So that, obviously, is a very significant 
educational tool--people understand there is one that can help, 
and you know who they are and what their needs are.
    Mr. Goldhagen. Right, absolutely.
    The Chairman. Have you had an occasion to test this? 
Obviously, you had four hurricanes last year. Was Duval County 
affected?
    Mr. Goldhagen. Yes. We were affected not to the extent that 
Southern Florida was affected. Yes, we have detract teams, 
which are teams that actually go out post-event to actually 
look at people's homes to find out whether or not there is 
electricity, not electricity, whether it is appropriate to send 
the person back, and whether a person in fact registered to 
come to the shelter actually came. Sometimes when we arrange 
the transportation with the other emergency service function, 
if people refuse to actually be transported, we will go back 
after the event to make sure that, in fact, they are okay.
    We have a very interesting program called Adopt-A-Shelter 
program, and each of the hospitals in Jacksonville have adopted 
a special-needs shelter. They are responsible for assuring that 
there is personnel, not only physician nurses, but respiratory 
therapists. They are responsible for making sure that all of 
the material that is needed in the center is there.
    We have a contract with a medical supply company, and that 
contract includes maintaining an inventory over time so that if 
we need to open up a shelter, we pick up the phone. The medical 
supply company drops everything that is needed to run that 
center, and we then walk in with our personnel and it is all 
there, from oxygen to medications, and so on. If we have to 
change a venue after the event, they take all of that material 
and move it to another venue.
    We have 500 people in the Medical Reserve Corps who serve 
as a background for us to back us up. That includes physicians, 
nurses, respiratory therapists, and so on. We have ham 
operators in each of our shelters, and the community is 
completely connected by an 800 mega hertz radio system.
    My time is really, actually over. I just want to focus on 
several recommendations. The first is an all-hazards approach. 
There has been a tremendous amount of assets and resources that 
have come down to the local level. We would say that most of it 
has not come to the health departments public account, but 
there has been a tremendous amount of resources coming in. 
Unfortunately, it has been categorical, focused on 
bioterrorism. We need the ability to use the resources that 
come in, in an all-hazards approach so that we can be as 
prepared to deal with a hurricane as we are with an anthrax 
attack. That would be the first recommendation that I would 
have.
    The second is, frankly, that a focus needs to be put in the 
public health infrastructure nationwide. In fact, if we are 
able to respond, or <plus-minus><plus-minus>the capacity to 
respond, we can in fact do so. Clearly, what happened in 
Katrina is once there was a focus off of the public safety 
issue, the focus was on public health, and this is a public 
health emergency and so on. So, ultimately, all disasters 
deteriorate essentially into a public health disaster and 
public health system.
    We need to make sure that public health departments 
understand that, in fact, they are responsible for the system's 
response and coordinating the other elements of the health 
system. We need state laws that really require local 
jurisdictions to create these searchable databases, and make it 
very well defined. In fact, the public health system is 
responsible for these roles and responsibilities.
    Finally, let me reiterate again, we need flexibility. We 
need the ability to use the assets and resources that are 
coming from the federal level to meet the needs of our local 
communities. If that happens, then we have the capacity to 
actually respond to make sure the systems work.
    [The prepared statement of Mr. Goldhagen follows:]

    [GRAPHIC] [TIFF OMITTED] T6545.031
    
    [GRAPHIC] [TIFF OMITTED] T6545.032
    
    [GRAPHIC] [TIFF OMITTED] T6545.033
    
    [GRAPHIC] [TIFF OMITTED] T6545.034
    
    [GRAPHIC] [TIFF OMITTED] T6545.035
    
    [GRAPHIC] [TIFF OMITTED] T6545.036
    
    [GRAPHIC] [TIFF OMITTED] T6545.037
    
    [GRAPHIC] [TIFF OMITTED] T6545.038
    
    [GRAPHIC] [TIFF OMITTED] T6545.039
    
    [GRAPHIC] [TIFF OMITTED] T6545.040
    
    [GRAPHIC] [TIFF OMITTED] T6545.041
    
    The Chairman. Well, Mr. Goldhagen and Ms. Greene, you both 
are truly to be congratulated for the work you have done in 
your communities and counties to prepare, particularly for the 
focus on the seniors, and mental health issues, and special 
services for people with dementia. It is actually a very 
remarkable kind of plan you have in place. I guess my question 
to you is, in your dealings and in your associations with other 
states and counties, do most have the level of preparation that 
you have in these Gulf state areas?
    Mr. Goldhagen. Well, I would say most definitively in the 
state of Florida. The reason for that is, quite frankly, a 
history of how Florida's public health system has been 
established. That is there are 67 counties. There are around 65 
local health departments. The expectation from the state and 
expectation of the counties are that, in fact, the health 
departments and the local systems are going to respond. So, 
then, in the context of a system that is structured like that, 
the answer is yes. On the other hand, using another state, 
which I came from, which was Ohio, in Cuyahoga County, as an 
example, there was the county health department, there was the 
City of Cleveland's health department, and there were multiple 
other local health departments.
    So part of the answer, recommendations, need to make sure 
that counties have a coordinated system at the local level that 
are going to work, and that the agencies responsible have the 
capacity and the resources to, in fact, do so. I sat in awe and 
listened to Mr. Bea talk about the structure at the federal 
level. But ultimately, if it is going to work, the real focus 
needs to be at ensuring the capacity at the local to respond.
    The Chairman. Florida had four tough hurricanes last year, 
but the response was--I heard Senator Martinez even speak to 
it----
    Mr. Goldhagen. Remarkable.
    The Chairman [continuing]. Pretty darn good at the local, 
state and federal level. I think you even commented that FEMA 
really showed up and got it done. I think that that is a real 
credit to Florida and to FEMA, and the people who were all 
concerned.
    Ms. Greene, are you familiar with S. 1716 that has to do 
with 100 percent Medicaid reimbursement for states like yours 
who are taking in refugees? Are you aware of it, and is that 
important?
    Ms. Greene. Yes, sir. Oh, it is. My understanding is that 
Georgia's 1115 Medicaid waiver request has been approved, and 
it was modeled similar to Texas. I believe Georgia according to 
FEMA had 40,000 plus heads of households registered from the 
Gulf states that had come to Georgia. My understanding is we 
will have a five-month, 100 percent federal matching rate for 
those people. Many of them have come either into our nursing 
homes and maybe never needed a nursing home, and now we are 
moving them into the Medicaid waiver for home and community-
based services, the community care services program that we 
manage. We are very appreciative at that immediate assistance, 
and it is going to help us out a lot.
    The Chairman. Well, we are going to get it done. I think it 
is also fair to say, in relationship to Louisiana, that even 
the best plans can be overwhelmed by natural disasters. Would 
you agree with that?
    Ms. Greene. I would agree. The advantage, at least for us, 
is that since we were not a disaster state--we actually had 
electricity, utilities, cell phone towers--it is much easier to 
help the displaced individuals. I can imagine lessons learned 
from the Gulf states is going to be 10-fold, of the ones that I 
mentioned today just for Georgia.
    The Chairman. Mr. Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    I will say that Florida's preparedness today, in great 
measure, is owed to the failures of Andrew in 1992, when things 
did not go quite as well. I think a lot was learned there, and 
I think a lot of those lessons were applied, and equally, I 
think we need to learn from Katrina, so that we can move 
forward in a better way.
    Dr. Goldhagen, I just want to welcome you. As a fellow 
Floridian, I am proud to have you here and proud of the work 
that you all do in Jacksonville. I know Mayor Payton is a great 
local leader and does a great job as your local leader. You 
have had a good heritage of good mayors in the City of 
Jacksonville, which I know makes a big part of your ability to 
do what you do in your department.
    I was going to ask you about specifically what areas where 
you feel there is need for flexibility, if you could be a 
little more specific so that I can maybe be more helpful and 
more responsive. I am very sensitive, coming from local 
government, about assistance that come from gifts with strings 
attached to such an extent that it, perhaps, makes it unusable 
for the needs that you have. Particularly as it relates to 
emergency response, we have to make sure that we take away 
constrains to the flexibility that local governments will need 
as they attempt to deal with emergencies.
    Can you be specific with that?
    Mr. Goldhagen. Sure. I can give you actually a wonderful 
example that certainly the disaster in New Orleans identified 
for us.
    Jacksonville, for those of you who do not know, is just an 
absolutely beautiful city situated on the ocean, but also 
having a river that runs through it, the St. John's River. We 
have two of our largest hospitals, actually, on the river, 
Baptist and St. Vincent's hospitals. They have their generators 
on the level of the river, and all of their electrical 
equipment and switches, as an example are basically at that 
level too. So, in fact, in a situation where you want to 
evacuate vertically, or move people up as opposed to moving 
them out, that would not be possible in this situation.
    The HRSA dollars that are coming to Jacksonville do not 
allow us to invest putting ancillary, auxiliary generators up 
high enough to allow them then to evacuate vertically, which 
would eliminate the kind of problems that we saw happening in 
the hospitals in New Orleans. That would be one very specific 
example of how we would use the federal dollars in a different 
way if we were allowed to, in fact, use those dollars in that 
context.
    Now, one might say that it should be the responsibility of 
the hospitals. The hospital systems are under significant 
distress in some respects. There is not the resources 
necessarily in the hospitals to actually do that, or with some 
additional dollars, that we would be able to do that.
    That would be an example of how we would use the dollars 
that are coming from the federal government if, in fact, we 
have flexibility. Most of the dollars coming through Homeland 
Security, through HRSA CDC, come with strings attached to focus 
very specifically on bioterrorism and terrorism events. In 
fact, what we need to do is to be able to use those dollars in 
an all-hazards approach so that, in fact, we are as prepared to 
deal with a hurricane again as we are to deal with whether it 
is a radiological or biological event.
    Senator Martinez. Thank you.
    One of the really egregious examples of failures in New 
Orleans is the issue of the nursing homes that, perhaps, or 
obviously, were not timely evacuated or evacuated at all. How 
does Duval--and I'll take it on to Georgia as well, ask both of 
you to address. How do you deal with these vulnerable 
populations that you know are in situations where they are 
going to be totally dependent? How do you deal with them in 
terms if evacuations are necessary and providing for a better 
situation if they need to be evacuated?
    Ms. Greene. I think, obviously, the key is communication. 
We have heard several times that as much communication that you 
can do in advance is beneficial. I know we require, through our 
Office of Regulatory Services, that they have emergency plans. 
Those are checked on to see that they are in place. But if they 
do not heed the warnings early--because we know that with older 
people and people with disabilities, you are going to need a 
little bit more time to help them move. Helping them to move, 
you also have all of their wheelchairs, their walkers, their 
medicines, and their records that would be helpful to go with 
them. So time is of the essence in that pre-planning, and that 
communication is essential.
    Mr. Goldhagen. I would agree. But I would like to just 
comment on the issue of double counting. I am not exactly sure 
what that meant. But, again, I think it really focuses the 
issue on the capacity of local government to respond.
    When we actually evacuated the beaches last year for one of 
the hurricanes, it became very clear that the ambulance 
companies--if this is what you meant by double counting--had 
multiple contracts, all with different facilities, including 
the hospital and so on. What we were able to do was take over 
the system.
    We then stepped in--the health department, the ESFA, took 
over the system, took over the ambulance, triaged the 
ambulance, got the hospital--which we have one at the beaches--
evacuated early, and then assured that the system was in place 
to orderly evacuate each of the nursing homes that needed to be 
evacuated.
    Without a strong local health system, nobody could have 
walked in and taken over the actual function of the ambulance 
services to ensure that, in fact, there was a coordinated 
approach to what needed to happen. So, again, it comes back to 
emphasize the critical role, both predictable as well as 
unpredictable. We had not predicted that, in fact, the local 
ambulance companies had multiple contracts with the same people 
to do the same thing, but because a system was in place, we 
assumed that responsibility.
    Senator Martinez. In those instances, though, where the 
beach was evacuated, how far in advance was that carried out, 
whose decision was it to evacuate, and who executed the 
decision to evacuate?
    Mr. Goldhagen. Well, the way the system works, it is the 
mayor's decision. We meet as an executive group, which is 
probably 30 to 40 people.
    Senator Martinez. The EOC?
    Mr. Goldhagen. At the Emergency Operation Center, right, 
which 12 years ago was one room with three telephones, and 
today is an extremely sophisticated, high-tech center. We meet. 
The mayor makes the decision. There is a complex set of 
formulas that go into exactly how long in advance we should be 
getting the evacuation. We routinely argue for starting 6 to 12 
hours before the Emergency Operation Center is willing to 
start, and we go through that discussion and tension, and a 
decision is made when to do it. Then the emergency service 
functions go into place, and we work in a coordinated way, with 
all of us sitting around in the same facility.
    Senator Martinez. Those are all functions of the local 
officials.
    Mr. Goldhagen. Yes.
    Senator Martinez. My experience in Orange County was that 
we pretty much made those decisions and carried them out 
ourselves.
    Mr. Goldhagen. Yes.
    Ms. Greene. It is similar in Georgia and also with the role 
of public health, which I value and support. We have provisions 
in Georgia statute for public health to also step up to the 
plate and take control if it is not working out, similar to how 
he was describing it. So my hat is off to the first responders. 
At times, people have said, should the aging network be the 
first responder. We are seeing the bulk of our work now, after 
the crisis. We did not necessarily need to be there with the 
first responders. Our work is more now.
    Senator Martinez. It is the long-term recovery and the 
issues that come from that.
    Ms. Greene. Absolutely.
    Senator Martinez. Thank you both very much.
    Mr. Goldhagen. Thank you for the opportunity.
    The Chairman. To the incident Senator Martinez raised, 
where healthcare providers and responders literally abandoned 
hundreds of elderly people to die, and they died, I wonder if 
part of your calculation now is to work with those providers on 
their own plans for how to take care of their individual and 
family needs without abandoning the vulnerable population.
    Is that a new calculation in preparedness; that you have to 
know who your responders are and what their back bone is going 
to be in the event of these kinds of catastrophes?
    Mr. Goldhagen. Well, that is not an issue for us, primarily 
because we work extensively with the medical society, as an 
example. When we evacuate a hospital, the physician orders go 
with the patient. We have worked on creating actually bilateral 
agreements with nurses so, in fact, with the hospitals, to 
allow nurses from one hospital to actually follow with the 
patients to another hospital, and have worked through all the 
legal issues related to that, so that if one hospital is 
evacuated, the nursing staff goes at that entity.
    Again, in our database system, we have the information as 
to who the doctors are, and have worked with the hospitals, as 
well as the medical society, to ensure that, in fact, that is 
not an issue for us. When we need the physicians, they are able 
to evacuate with their families, so that we care for the 
families as well as them, if they are involved with the 
emergency response.
    The Chairman. That is very good news. Duval County is 
lucky. I hope every county prepares in the future the way you 
have. Of all the tragedy in this Katrina episode, I think the 
most disgraceful was the abandonment of these elderly people to 
die. I mean, I do not know how that happens in the 21st 
century, but it did.
    Thank you both for your presence here. It has been 
wonderful, the contribution you have made to our hearing today. 
With that, we thank you, and we will call up our third and 
final panel.
    The Chairman. Panel 3 will consist of Ms. Leigh Wade, who 
is the executive director of the Area Agency on Aging in 
Southwest Florida. She will discuss the role of area agencies 
on aging during a disaster. Her experience during past 
hurricanes have led her to work more closely with communities 
in developing disaster preparedness plans.
    We will also have Dr. Carolyn S. Wilken. She is an 
associate professor in family science, and a cooperative 
extension specialist in the area of gerontology at the 
University of Florida. Dr. Wilken is here today to discuss 
communication and transportation issues that older Americans 
face during these disasters.
    Finally, Susan Waltman is the senior vice president and 
general counsel at the Greater New York Hospital Association. 
Ms. Waltman is here to discuss her role as a healthcare 
representative in New York City's Emergency Operation Center, 
EOC, during a disaster, and how she identifies and coordinates 
responses to healthcare emergencies.
    We thank you all for being here.
    I suppose, Susan, maybe there is a slant you can give, not 
a natural disaster, but on a human cause disaster like 9/11 
certainly presented your city with.
    Why don't we start with Ms. Wade.

STATEMENT OF LEIGH E. WADE, EXECUTIVE DIRECTOR, AREA AGENCY ON 
        AGING OF SOUTHWEST FLORIDA, INC., FORT MYERS, FL

    Ms. Wade. Good morning, Chairman Smith. Thank you for this 
opportunity to present today.
    My name is Leigh Wade, and I am the executive director of 
the Area Agency on Aging for Southwest Florida, Inc., which is 
based in Fort Myers, FL. Today, I also speak on behalf of the 
National Associations of Area Agencies on Aging, or N4A, which 
champions the interest of the nation's 650 area agencies on 
aging, or AAAs, and 240 Title VI Native American aging 
programs.
    The human suffering caused by Hurricanes Katrina and Rita 
will linger in the American consciousness for years to come. 
Older adults were particular hard hit by these disasters. We 
will not soon forget the images of the frail, older women, 80 
and 90 years old, who were air lifted to safety, or diabetic 
seniors unable to access proper medical care in an overwhelmed 
shelter. Our hearts go out to our friends on the Gulf Coast. 
Having lived through many Florida hurricanes, I have some idea 
of what they are going through and what lies ahead.
    In 2004, the AAA of Southwest Florida had the misfortune of 
bearing the brunt of three separate hurricanes in a little over 
a month's time when Hurricanes Charley, Frances and Jean hit in 
rapid succession. Today, more than a year later, older adults 
in my area are still struggling to recover.
    Fortunately, we had a disaster plan that we put into action 
early on. We called the local older adults to inform them of 
Charley's approach, and to warn them, they may have to evacuate 
from their homes.
    During the hurricanes, our agency assessed and responded to 
the needs of affected seniors. Working side by side with aging 
service providers in the most severely affected communities, we 
focused on delivering meals, water and ice to older adults. Our 
agency staff helped arrange transportation for the older adults 
to the special needs shelters and worked at disaster recovery 
centers.
    We had help from some federal, state and local agencies. 
Assistant Secretary on Aging, Josefina Carbonell, visited the 
devastated areas within three days after the hurricanes hit, 
and offered the Administration on Aging funding, assistance, 
and coordination. On the other hand, another federal agency did 
not figure out that we could help them assist older adults 
until two months after the first hurricane hit.
    The services we provided exhausted our Older Americans Act 
Disaster Funding of $4.3 million. We had to cease accepting 
applications and have over 100 applications still pending. We 
are still receiving calls on a daily basis for more assistance. 
We found through our hurricane experiences that older adults 
have distinct needs that present challenges to community-wide 
emergency planning and response. Every stage of an emergency 
needs to be handled differently when dealing with frail, older 
adults during evacuation, at the emergency shelters, and when 
returning to the communities.
    There are many challenges in transporting older adults in 
providing appropriate health services and nutrition; in meeting 
the needs of people with special conditions, such as hearing 
loss and dementia; in handling emotional issues, which can be 
complicated by separation from loved ones and caregivers; and 
in protecting people from those people who would prey upon 
older adults. By definition, disasters and other emergencies 
reduce any agency's capacity to continue business as usual. 
However, if properly supported, area agencies can plan a key 
role in disaster preparedness.
    I can think of at least three major areas where AAAs 
experiences and resources could be of service.
    First, organizing safe and accessible transportation is 
critical. AAAs have a wealth of experience in working with 
community transportation authorities and providers through our 
assisted transportation programs.
    Second, finding appropriate temporary housing for older 
adults is another major challenge. In Southwest Florida, many 
long-term care facilities were closed permanently or for a long 
period of time. AAAs can assist in assessing the needs of older 
adults for housing assistance as well as connecting them to 
other needed services.
    Third, providing continuity of services to older evacuees 
as they move from shelters to other temporary housing has also 
been a significant challenge; one of my own personal pet 
peeves. Our agency had difficulty locating older adults who 
needed gap-filling services due to regulations that prevented 
FEMA from disclosing their new location once they had moved 
from the shelters to the temporary housing in FEMA cities. AAAs 
need to have access to older adults to ensure that they get the 
services they need.
    To effectively assist older adults during times of crisis, 
I join with N4A in offering you the following recommendations, 
which are detailed in my written testimony. In order to succeed 
as a first responder to older adults, AAAs must have better 
access to decision-makers; be directly involved in long-range 
planning; be at the table in order to coordinate services and 
have adequate resources, technology and communication tools to 
respond to older adults needs.
    Not only do AAAs need to be at the table when federal, 
state and local governments draft their emergency plans, we 
also need to take the lead in helping county and city 
governments adequately prepare for the aging of the population 
and the dramatic effect it will have on our nation. N4A has 
proposed establishing a new title in the Older Americans Act 
that would support AAAs and Title VI Native American aging 
programs to do just this. I hope you will support this new 
title when the Older Americans Act is up for reauthorization 
next year.
    The Chairman. Since you asked me to, I will.
    Ms. Wade. All right. Thank you very much. I sure do 
appreciate it. I am going to count on that.
    Thank you for holding today's hearing to call attention to 
the special needs of America's seniors in disaster. I would be 
happy to answer any questions you might have.
    [The prepared statement of Ms. Wade follows:]

    [GRAPHIC] [TIFF OMITTED] T6545.042
    
    [GRAPHIC] [TIFF OMITTED] T6545.043
    
    [GRAPHIC] [TIFF OMITTED] T6545.044
    
    [GRAPHIC] [TIFF OMITTED] T6545.045
    
    [GRAPHIC] [TIFF OMITTED] T6545.046
    
    [GRAPHIC] [TIFF OMITTED] T6545.047
    
    [GRAPHIC] [TIFF OMITTED] T6545.048
    
    [GRAPHIC] [TIFF OMITTED] T6545.049
    
    [GRAPHIC] [TIFF OMITTED] T6545.050
    
    [GRAPHIC] [TIFF OMITTED] T6545.051
    
    [GRAPHIC] [TIFF OMITTED] T6545.052
    
    [GRAPHIC] [TIFF OMITTED] T6545.053
    
    [GRAPHIC] [TIFF OMITTED] T6545.054
    
    [GRAPHIC] [TIFF OMITTED] T6545.055
    
    The Chairman. Thank you, Leigh Wade.
    Carolyn Wilken.

    STATEMENT OF CAROLYN S. WILKEN, PH.D. M.P.H., ASSOCIATE 
 PROFESSOR AND COOPERATIVE EXTENSION SPECIALIST, UNIVERSITY OF 
                    FLORIDA, GAINESVILLE, FL

    Ms. Wilken. Good morning, Chairman Smith.
    The Chairman. Good morning.
    Ms. Wilken. Thank you for the opportunity to speak with 
you. I have provided detailed written testimony as well as this 
presentation.
    News of the hurricane, flood, wild fire, or other natural 
disaster can cause anyone to worry, but such disasters create 
special challenges for older adults. While some older adults 
can react quickly and independently to an emergency, others who 
are frail, ill, alone, or institutionalized are at serious 
risks of injury or death when disaster strikes. In fact, we 
know that in natural disasters, the elderly comprise more than 
50 percent of all fatalities. We also know that in times of 
disaster, older adults respond differently than the general 
population. Older adults possess a very strong sense of 
independence and self-reliance accompanied by reluctance to 
accept help and a strong, if not overwhelming, attachment to 
their homes.
    A nurse who provided emergency care in Mississippi during 
Hurricane Katrina said it this way. ``Seniors are very attached 
to their homes. Their possessions, or even the place where 
their possessions remain, often take on such a special 
significance that it is impossible to coax them into 
evacuation.''
    This is more than hanging on to things. This is about 
hanging on to memories and the accomplishments of their lives. 
Sometimes it is the substance of what they have to remind them 
of who they were and who they are. But in spite of their 
hesitancy to leave their homes, sometimes older adults must 
evacuate. When that happens, many must rely on professionals to 
provide transportation to safety, yet older adults may be 
afraid of the transportation process. They worry that they 
cannot climb on to the bus, or that it will not stop in time 
for them to get to the bathroom, or because they do not know 
where the bus is taking them or how they will get back home.
    Older Floridians and service providers have had too many 
opportunities to learn about disasters. If experience is the 
best teacher, then Florida has been an attentive student.
    Let me describe two successful programs, and there are many 
others.
    Notice how their successful transportation and evacuation 
relied on ongoing communication at all levels. In the Florida 
Keys, a basic understanding of the needs of older adults--
particularly their needs for independence and personal 
responsibility--pre-planning, and personal communication were 
central to the successful evacuation of older adults. In the 
Keys, older adults were invited to put their names on a 
registry--and several people have discussed registries today--
so that they could be contacted in the event of an evacuation. 
When they registered, their physical and transportation needs, 
among other things, were assessed. This information allowed 
emergency planners to prearrange transportation, and 
appropriate modes of transportation; buses for the less frail, 
for example, and a fleet of ambulances from South Florida to 
transport those with complex medical needs, such as continuous 
flow oxygen, IVs, and critical medications.
    As the hurricane formed, older Americans on the registry 
were contacted by phone to assess their evacuation plans and 
transportation needs. A minimum of three follow-up phone calls 
were made to assure that each person was given the opportunity 
to evacuate. Individuals were told how they would be 
transported--by a bus or ambulance--where they could be taken, 
and how they would return to their homes.
    In Seminole County, law enforcement officers traveled door 
to door to reach people on the sheriff's registry of persons in 
need of special assistance. At the same time, senior volunteers 
from RSVP make phone calls to reassure older adults and to 
answer specific questions concerning transportation and the 
evacuation process. In both situations, understanding and 
respecting the lives and the concerns of older adults, 
preplanning for appropriate and sufficient transportation, and 
personal communication were central to the successful 
evacuation of older adults. Effective disaster response 
requires consistent communication at the local, state, and most 
importantly at the individual personal level.
    Personal education at a time that is appropriate, and in a 
method that is appropriate, is the most powerful tool for 
preparation for disaster. Cooperative extension service, the 
outreach arm of the land grant universities, such as University 
of Florida, and the Department of Elder Affairs in Florida, 
communicate with older adults through written publications such 
as the EDIS facts sheets, preparing for disaster after the 
hurricanes have gone, and the Florida Elder Affairs Publication 
Disaster Preparedness Guide. Written materials provide elders 
with the information they need to make informed, independent 
decisions concerning disasters.
    Personal communications with older adults requires 
training. The fact sheet, Stop, Look and Listen, teaches 
communication for one-to-one settings, while another fact 
sheet, Designing Educational Programs for Older Adults, focuses 
on communicating with groups in settings such as disaster 
recovery centers. I have provided you with copies of these 
materials.
    It is time to develop a national disaster plan that 
reflects and responds to the specific needs and concerns of 
older Americans. My colleagues in Cooperative Extension in the 
Florida Department of Elder Affairs would like to respectfully 
recommend that a coastal states coalition of professionals and 
disaster-experienced adults conduct a best practices conference 
to prepare the nation to help older Americans prepare to act 
quickly in the face of disaster.
    The final product of this conference would be an array of 
written materials and an interactive, multi-language web site 
that would be assessed by disaster planners and older Americans 
themselves. The long-term outcome of this conference would 
hopefully be to reduce the number of deaths and injuries 
suffered by older Americans during disaster.
    Thank you for the opportunity to testify at this hearing. I 
would be more than happy to answer your questions today or to 
follow up with additional information at the completion of 
today's proceedings.
    [The prepared statement of Ms. Wilken follows:]

    [GRAPHIC] [TIFF OMITTED] T6545.056
    
    [GRAPHIC] [TIFF OMITTED] T6545.057
    
    [GRAPHIC] [TIFF OMITTED] T6545.058
    
    [GRAPHIC] [TIFF OMITTED] T6545.059
    
    [GRAPHIC] [TIFF OMITTED] T6545.060
    
    [GRAPHIC] [TIFF OMITTED] T6545.061
    
    [GRAPHIC] [TIFF OMITTED] T6545.062
    
    [GRAPHIC] [TIFF OMITTED] T6545.063
    
    [GRAPHIC] [TIFF OMITTED] T6545.064
    
    [GRAPHIC] [TIFF OMITTED] T6545.065
    
    [GRAPHIC] [TIFF OMITTED] T6545.066
    
    The Chairman. Thank you both very much. Before we go to 
Susan, I wanted to ask you a question.
    Were you living in Florida when Hurricane Andrew hit?
    Ms. Wilken. I was not.
    Ms. Wade. I was.
    The Chairman. The poor response to Andrew, did that 
precipitate all the planning and preparation that has gone on 
since, as you have seen it?
    Ms. Wade. We have certainly seen an increase in the 
requirements for the construction industry, and we feel that 
there were a lot of lessons that were learned we were able to 
apply to the hurricane season of 2004. But even with Hurricane 
Andrew, being able to respond to four separate hurricanes in 
one season, I do not think Hurricane Andrew adequately prepared 
the state for that, but certainly there were a lot of lessons 
we were able to apply, but we have learned a lot more since 
then.
    The Chairman. Is there any evidence of the constructions 
standards being enhanced? Did they work in the subsequent 
storms?
    Ms. Wade. We have seen the houses that were able to 
withstand the wind. It's really interesting. If you go through 
the different communities that were affected, some of the 
houses withstood the winds. The same construction company built 
another house right next-door to it which could have been 
destroyed. But we really do believe that those standards did 
help the construction industry.
    But when we look at some of the mobile home units, I do not 
know that they are currently at the level that they need to be, 
or people that live there need to understand that maybe they 
can only sustain winds of whatever that maximum is, and then 
take that into consideration and worry about your own safety 
when those winds exceed that maximum amount.
    The Chairman. Are there consumer disclosures to buyers of 
such homes?
    Ms. Wade. Yes. They do receive disclosures that tell them 
what the sustained winds are.
    The Chairman. Carolyn, you mentioned how hard it is to 
sometimes coax a senior emotionally away from the world they 
live in and the possessions that remind them of an earlier day. 
When you provide all the information--this is where we will 
take you, this is what will be available to you, and this is 
when we will return you--does the participation in evacuation 
go substantially up?
    Ms. Wilken. It does help. There is a lot of fear of the 
unknown; where am I going to be, how will my family find me? So 
giving people information helps them make decisions. When 
people are stressed in the time of disaster, often times it is 
hard to hear what will happen, particularly for elderly people. 
It is hard to hear and to comprehend what is going to happen 
and how this is going to happen. So if you get that information 
very quickly, it makes it more frightening to go than to stay. 
On the other hand, if you can get that information to people in 
advance, and through the personal communications--for example, 
the RSVP phone calls that come in Seminole County--then people 
have a chance to process what is going to happen, and that 
helps them be more willing to go. It does not replace the 
possibility of losing my family pictures, which is important to 
everyone. But for older adults, those family pictures were 
often of people who are now gone, deceased.
    The Chairman. In the event that all the information, all 
the planning, and all the encouraging does not work and they 
decide to ride it out, what is done then as a follow up to find 
out if they are okay afterwards?
    Ms. Wilken. I think I would have to defer on that question 
probably to my colleague here. But before I do that, there is 
something that I put in my regular testimony, the longer 
version, which is the whole ethical decision-making process of 
mandatory evacuation, which is something that affects older 
adults that I think we need to look at as well.
    I would like to defer to you, Leigh.
    The Chairman. Leigh, what is done after the storm?
    Ms. Wade. Well, what I can address as far as that is 
concerned, taking into consideration that the Department of 
Health does arrange for the transportation of many of the 
adults that have registered through the notice that comes out 
in the electric bill, our agencies were able to register 
clients based on our day-to-day interaction with them and to 
help them understand the necessity of getting registered and 
being prepared to leave to go to the shelters.
    I can remember this lady who lived in a rural county out in 
Hendry County, who shared with us that she was not leaving her 
house and literally threatened our staff with a shotgun if we 
came back. So we left her to ride out the storm. But as soon as 
the storm was able, knowing that these clients did stay behind, 
our staff was able to get right back out there and make sure 
they were able to survive the storm, and then be able to start 
addressing any needs that they may have, based on the structure 
that they were staying in.
    I just want to address your point about the shelters. What 
we found was that even after we were able to encourage those 
people to go to a shelter the first time, they were exposed--
you take into consideration, this is an older adult who has no 
children around, no grandchildren. They have access to them, 
but they are not living with them. You put them in a shelter 
where they are stationed for days on in, weeks on in, and they 
are exposed to these children running around, screaming, 
yelling, not wanting to go to bed when they need to, and our 
older adults were very frustrated by that. So that is something 
that at a local level we really need to take a closer look at 
to see how we can address that from the local standpoint.
    The Chairman. That is very good. I appreciate so much from 
both of you.
    Now, Susan Waltman may have another take on how to deal 
with human disasters.

   STATEMENT OF SUSAN C. WALTMAN, SENIOR VICE PRESIDENT AND 
  GENERAL COUNSEL, GREATER NEW YORK HOSPITAL ASSOCIATION, NEW 
                            YORK, NY

    Ms. Waltman. Thank you very much for the opportunity to 
appear before you today. I am Susan Waltman. I am senior vice 
president and general counsel of the Greater New York Hospital 
Association. We represent 250 hospitals and long-term care 
facilities in the New York City region. We believe that the 
issues that you are examining today are very important. While 
many of us spend a lot of time on emergency preparedness, 
Hurricane Katrina in its aftermath demonstrated quite vividly 
and in real time how there are very disparate abilities and 
needs of various populations to participate in and gain the 
benefit of even the best of emergency plans, and evacuations in 
particular.
    We have, obviously, approached preparedness from the 
standpoint of hospitals, as those facilities that we represent 
and those we think would be most called upon to prepare for 
disasters. But we also recognize that what we do--and we are 
hopeful that that is the case--can apply to many other regions 
of the country as well as to how we can better care for special 
needs populations as well.
    I would like to just review what our framework has been. It 
is one that we believe is billed upon an already very strong 
regional framework for preparedness that exists in the New York 
City region. It is one that we think focuses very heavily on 
ongoing preparedness, where we really pay attention to and we 
learn from every event alert in an emergency. It is a very 
collaborative approach, one where we are preparing everyday 
with what we call our ``partners in preparedness,'' and all 
other kinds of providers, as well as local, state and federal 
governmental agencies.
    I will go through very quickly what we view as our guiding 
principles in that regard.
    We view ourselves as being in a very high-risk region. That 
is true for other areas of the country as well, for different 
reasons. We have experienced, as you well know, two separate 
attacks on the World Trade Center. We went through four 
different anthrax attacks, and we are very aware, very 
cognizant, everyday that we are on the list of other high-risk 
targets as well.
    We also recognize that we can experience natural disasters 
as well. We experience hurricanes and plan for them as well, 
and we know that we, as somewhat the gateway to the rest of the 
world, can experience infectious diseases as being the front 
line, for example, and we prepare for pandemic influenza, which 
we are spending a lot of time on right now.
    So we live everyday and we try to do it with a sound mental 
health approach as well, as though we could experience an 
emergency at any time. We do that through what we refer to as a 
very strong three-way partnership among providers. In our case, 
it might be human service agencies for another circumstance. 
But there is a three-way partnership among providers, the 
health and public health agencies, and the emergency management 
agencies. We cannot prepare in isolation or we would end up 
really not knowing what the other party can do for us or what 
we can do for them.
    I think the two ways that gets demonstrated in the New York 
City region is that we, for many years, have actually had a 
seat at the New York City Office of Emergency Management's 
Emergency Operation Center. We, Greater New York Hospital 
Association, sit there as though we are a public agency, and we 
are grouped with the other health and medical agencies, such as 
the city and state health departments, the EPA, et cetera, so 
that we can interact with them, give them assistance, and they 
can give our own members and other healthcare providers 
assistance as well.
    We also have put together since September 11, what is 
referred to as an Emergency Preparedness Coordinating Council. 
There are many task forces that bring together these three 
partners that different groups have put together. Ours is 
obviously from the provider prospective, but we have forced, so 
to speak, the issue of bringing everybody to the table. We have 
literally met, or had a work group, or had a conference call, 
every single week I would say since 9/11, all with the aim of 
improving and enhancing preparedness among these three parties. 
I do suggest that it could differ for human services. For 
example, the replacement in terms of providers would be human 
service agencies with the relevant local agencies and emergency 
management agencies.
    We subscribe, as you have heard today, to an all-hazards 
approach. We to, after 9/11, looked very hard at anthrax and 
smallpox, but then we took a very quick deep breath, and we 
said let's have an all hazards approach, so that we can respond 
to any type of emergency, and then fit in the hurricane plan, 
the pandemic influenza pan, et. cetera. As part of that, we 
subscribe very heavily to incident command systems, so that we 
can better prepare internally, talk to other providers, as well 
as other agencies, so we are talking the same language as we 
respond, and everybody has a better sense of their role.
    There is very heavy emphasis, as you have heard, on 
communications. We look at that from two perspectives. We need 
to know very clearly with whom, how, and for what? We need to 
communicate before a disaster so that we have all the 
information we need. The partners, our patients, our clients 
would be the translation before that disaster occurs, so we do 
not need to--as the Deputy Commission of OEM says--change carts 
in the midst of a disaster. We also, obviously, have built in 
redundant communications as well; how does that get 
demonstrated? We have an extensive emergency contact directory 
about all of our members, how to reach the chair of the 
disaster committee, the administrator on call, the Emergency 
Operation Center, and every single one of our members from 
basic phone lines to ham operators. It goes all the way down.
    We have very extensive ways to communicate with members 
through e-mail alerts. We have 800 mega hertz radios that 
connect the hospitals and the nursing homes with us and the 
Office of Emergency Management. We have a web site that is 
opened to the public--it is not something that is just for 
members only--that gives extensive information, focusing 
particular on services and information for the community at 
large, for the public, in terms of their own preparedness.
    What we have also developed, and we needed--and I just want 
to say, you did not ask me about lessons learned, but almost 
everything that you are hearing in terms of what we have put in 
place is because we learned lessons. We paid attention to what 
we needed and what we recognized that we needed during the 
course of 9/11 and the months afterwards. It was a good way to 
identify common elements that we needed, data elements, 
information about an emergency, so we can manage an emergency 
better--data elements--as well as an efficacious way of 
collecting that information.
    So we worked with our state health department, and we have 
created the Health Emergency Response Data System, which is 
housed on the state's health provider network in a secure 
Internet site, that allows us to communicate information about 
our needs, as well as what we can offer during a disaster. It 
has many different templates that can be used in terms of beds, 
staffing, availability, and what is being experienced during a 
particular event. We also build in--because we needed it on 9/
11--a patient location system. We practice and we use it 
weekly. We have drills, and it is able to be used for many 
types of providers, and I think it has become a very valuable 
tool for managing emergencies.
    We really feel very strongly that we have to understand 
each other's roles and responsibilities again. That is all a 
part of this three-way partnership. In order to do that, we 
plan and we drill together as we develop a plan on threat-alert 
guidelines, on hurricanes, on pandemic influenza. We have all 
of the parties at the table, so we make sure that it works. We 
might spend two meetings on the first step because we need to 
understand better who takes charge, who is on the site, who 
will communicate with whom, and the rest does flow from that, 
but we undertake very collaborative planning. Training and 
education is very important as well.
    Interestingly, on the issue of providers, first responders' 
families, we just undertook a survey of what training our 
members still needs. It is very much on household preparedness, 
so that our own healthcare workers will feel comfortable 
showing up for work during an emergency.
    I have gone through our guiding principles for preparedness 
in general. We have subscribed to them as a region and as a 
state, and have looked at how we can better care for our 
special needs populations. I think the city and the state have 
done that very well to date, but we recognize we need to do 
much more. Already we have participated in and have arranged 
for a number of meetings to look hard at evacuation plans. The 
state, city and we are looking at putting together templates 
for evacuation plans for nursing homes and a variety of other 
types of providers, as well as the type of information that 
every kind of agency should be collecting about its own 
patients and their clients, so they can all reach them, as you 
have heard, in advance and during a disaster, and understand 
their special needs and be able to share that information so 
people can be adequately cared for and evacuate. We do, 
obviously, subscribe to individual preparedness. I think that 
enables the individual, whether they are an older American or 
someone else, to avail themselves of the plans that do exist, 
but we do take charge. We do believe that the agencies have 
responsibility for making sure that their clients are well 
taken care of.
    We think a lot of what we have done can be expanded to 
other regions on caring and planning for special needs 
populations. We offer, obviously, to make anything that we have 
done, any of these lessons we have learned, sometimes the hard 
way, available to others.
    [The prepared statement of Ms. Waltman follows:]

    [GRAPHIC] [TIFF OMITTED] T6545.067
    
    [GRAPHIC] [TIFF OMITTED] T6545.068
    
    [GRAPHIC] [TIFF OMITTED] T6545.069
    
    [GRAPHIC] [TIFF OMITTED] T6545.070
    
    [GRAPHIC] [TIFF OMITTED] T6545.071
    
    [GRAPHIC] [TIFF OMITTED] T6545.072
    
    [GRAPHIC] [TIFF OMITTED] T6545.073
    
    [GRAPHIC] [TIFF OMITTED] T6545.074
    
    [GRAPHIC] [TIFF OMITTED] T6545.075
    
    [GRAPHIC] [TIFF OMITTED] T6545.076
    
    [GRAPHIC] [TIFF OMITTED] T6545.077
    
    [GRAPHIC] [TIFF OMITTED] T6545.078
    
    [GRAPHIC] [TIFF OMITTED] T6545.079
    
    [GRAPHIC] [TIFF OMITTED] T6545.080
    
    [GRAPHIC] [TIFF OMITTED] T6545.081
    
    [GRAPHIC] [TIFF OMITTED] T6545.082
    
    The Chairman. Susan, obviously, after 9/11 and Katrina, we 
in government and in the private sector have to begin imagining 
the unimaginable. Did you see a substantial increase in your 
preparedness after 9/11 or was it in place after the first 
bombing of the World Trade Center?
    Ms. Waltman. I think we have historically had a very strong 
regional planning approach in New York City because of the 
initial World Trade Center attack, as well as the large events 
that we host in our small town of 8 million people. But there 
is no question that we have spent an awful lot of time since 9/
11. I think we realized that we are very much a target, and 
that we need to do even more collaborative planning.
    I think, as I said, that everything that you have heard we 
have put together, we have done so with hindsight and of the 
experiences that we have seen. We also have tried very hard not 
to experience a failure of imagination, as the 9/11 Commission 
says, so we have thought very hard about things we have not yet 
experienced and that might occur, and I think that has informed 
us tremendously.
    I just want to say one last thing. Mayor Bloomberg has made 
the point in terms of special needs populations, that no one 
will be left behind. Certainly, that is going to be a very hard 
task to accomplish, but I think if we go out everyday as we 
prepare, I think we are better at making sure that we think of 
all the special needs populations, and older Americans in 
particular.
    The Chairman. Can the abandonment of elderly and disabled 
people cannot happen in your area?
    Ms. Waltman. I think it can happen. I think we are, with 
all deliberate speed and efforts, trying to make sure that it 
does not happen. I think that will mean an expansion of our 
collaborative planning. I know that the Office of Emergency 
Management plans to include more agencies potentially in an OEM 
activation so that we cannot have, or we are less likely to 
have, what occurred. Again, that gets back to learning lessons 
and paying attention to everything.
    The Chairman. I remember being in New York a few days after 
9/11, and we spent some time on a huge hospital ship that had 
come in to take care of the injured, but there were no injured. 
There were, frankly, few survivors. They were, obviously, 
injured, but not what had been planned for.
    I guess my question, then, becomes, your system is very 
much an urban system. Yet, you say you have a model that you 
think is adaptable to other areas. How is it adaptable to more 
rural states?
    Ms. Waltman. I think that the essence of the plan is 
collaborative planning, is making sure that the private and 
public agencies or authorities that are responsible for 
individuals come together. I think that it is so easy to engage 
in silo approaches, stovepipe approaches, whether you have an 
urban area or a rural area. I do say in the written testimony, 
it does not matter who takes charge in a particular community, 
rural or urban; you have to have a champion. Maybe it is going 
to be the private sector that comes forward and forces, as I 
said, people to come to the table. But you can engage in 
collaborative, everyday planning no matter where you are. I do 
think there are some very basic principles in terms of 
communications and all hazards that can apply no matter where 
you are.
    The Chairman. Well, you are all to be congratulated on the 
work that you do, the programs that you run, and the care that 
you provide. We really appreciate your presence here today, 
what you have done to highlight the importance of both private 
and public sector collaboration. We have to do better. 
Experience is a hard task master, and the lessons learned are 
lessons we want to highlight.
    I want to express, on behalf of the senior population of 
which I am quickly becoming a member, we appreciate your focus 
on the special needs of the elderly. Ours is an aging nation, 
so their needs are, frankly, all of our needs. With that, our 
heartfelt thanks. This hearing is adjourned.
    [Whereupon, at 12:11 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              


                Prepared Statement of Senator Herb Kohl

    We thank our Chairman, Gordon Smith, for holding this 
hearing on emergency preparedness planning for seniors, and for 
his leadership on this and countless other important issues 
facing older Americans.
    Emergency preparedness planning is a challenge under any 
circumstance. Preparing for the unique needs of the elderly 
requires even greater diligence and resolve. As we have seen in 
the aftermath of Hurricanes Katrina and Rita, disasters have an 
exaggerated effect on seniors, in particular those who depend 
on others for assistance in their daily lives. The ongoing 
provision of evacuation transportation, food, medication and 
shelter all become life and death matters.
    This does not even speak to the tragedies we recently 
witnessed in the abandonment of the disabled and elderly in 
nursing homes, hospitals and other care facilities- the 
institutions which we would assume would be most vigilant in 
emergency preparedness and caring for our most vulnerable. In 
this regard, I have asked the Inspector General of the 
Department of Health and Human Services to conduct a thorough 
investigation into federally mandated evacuation plans for 
nursing homes and hospitals to determine the adequacy and 
shortcomings of those plans in place.
    As we have learned from past disasters and attacks, a 
multidisciplinary approach on the federal, state and local 
levels is needed to properly guarantee that the needs of our 
seniors are addressed. Today, the Committee will hear from a 
panel of experts who will tell us just how to do this. We look 
forward to hearing from and working with them to ensure that in 
the face of future disasters, our seniors remain healthy, safe 
and secure.
    Thank you Mr. Chairman.

    [GRAPHIC] [TIFF OMITTED] T6545.083
    
    [GRAPHIC] [TIFF OMITTED] T6545.084
    
    [GRAPHIC] [TIFF OMITTED] T6545.085
    
    [GRAPHIC] [TIFF OMITTED] T6545.086
    
    [GRAPHIC] [TIFF OMITTED] T6545.087
    
    [GRAPHIC] [TIFF OMITTED] T6545.088
    
    [GRAPHIC] [TIFF OMITTED] T6545.089
    
    [GRAPHIC] [TIFF OMITTED] T6545.090
    
    [GRAPHIC] [TIFF OMITTED] T6545.091
    
    [GRAPHIC] [TIFF OMITTED] T6545.092
    
    [GRAPHIC] [TIFF OMITTED] T6545.093
    
    [GRAPHIC] [TIFF OMITTED] T6545.094
    
    [GRAPHIC] [TIFF OMITTED] T6545.095
    
    [GRAPHIC] [TIFF OMITTED] T6545.096
    
    [GRAPHIC] [TIFF OMITTED] T6545.097
    
    [GRAPHIC] [TIFF OMITTED] T6545.098
    
    [GRAPHIC] [TIFF OMITTED] T6545.099
    
    [GRAPHIC] [TIFF OMITTED] T6545.100
    
    [GRAPHIC] [TIFF OMITTED] T6545.101
    
    [GRAPHIC] [TIFF OMITTED] T6545.102
    
    [GRAPHIC] [TIFF OMITTED] T6545.103
    
    [GRAPHIC] [TIFF OMITTED] T6545.104
    
    [GRAPHIC] [TIFF OMITTED] T6545.105
    
    [GRAPHIC] [TIFF OMITTED] T6545.106
    
    [GRAPHIC] [TIFF OMITTED] T6545.107
    
    [GRAPHIC] [TIFF OMITTED] T6545.108
    
    [GRAPHIC] [TIFF OMITTED] T6545.109
    
    [GRAPHIC] [TIFF OMITTED] T6545.110
    
    [GRAPHIC] [TIFF OMITTED] T6545.111
    
    [GRAPHIC] [TIFF OMITTED] T6545.112
    
    [GRAPHIC] [TIFF OMITTED] T6545.113
    
    [GRAPHIC] [TIFF OMITTED] T6545.114
    
    [GRAPHIC] [TIFF OMITTED] T6545.115
    
    [GRAPHIC] [TIFF OMITTED] T6545.116
    
    [GRAPHIC] [TIFF OMITTED] T6545.117
    
    [GRAPHIC] [TIFF OMITTED] T6545.118
    
    [GRAPHIC] [TIFF OMITTED] T6545.119
    
    [GRAPHIC] [TIFF OMITTED] T6545.120
    
    [GRAPHIC] [TIFF OMITTED] T6545.121
    
    [GRAPHIC] [TIFF OMITTED] T6545.122
    
    [GRAPHIC] [TIFF OMITTED] T6545.123
    
    [GRAPHIC] [TIFF OMITTED] T6545.124
    
    [GRAPHIC] [TIFF OMITTED] T6545.125
    
    [GRAPHIC] [TIFF OMITTED] T6545.126
    
                                 <all>

</pre></body></html>
